Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
  SAINT THOMAS HOSPITAL FOR
 CALENDAR YEARS 2009 AND 2010

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                        May 2013
                                                      A-04-12-03071
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, intended to be
payment in full to the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

Saint Thomas Hospital (the Hospital) is a 541 bed acute care facility located in Nashville
Tennessee. According to CMS’s National Claims History data, Medicare paid the Hospital
approximately $261 million for 26,855 inpatient and 71,176 outpatient claims for services
provided to beneficiaries during calendar years 2009 and 2010 (audit period).

Our audit covered $28,592,688 in Medicare payments to the Hospital for 3,297 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 250
claims with payments totaling $3,335,641. These 250 claims had dates of service in our audit
period and consisted of 195 inpatient and 55 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected types of claims.




                                                i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 206 of the 250 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
the remaining 44 claims, resulting in overpayments of $293,359 for the audit period.
Specifically, 40 inpatient claims had billing errors resulting in overpayments of $270,040, and 4
outpatient claims had billing errors resulting in overpayments of $23,319. These errors occurred
primarily because the Hospital did not have adequate internal controls to prevent incorrect billing
of Medicare claims within the selected risk areas that contained errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $1,092,248 for the audit period.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $1,092,248 in estimated overpayments for the audit
       period claims that it incorrectly billed and

   •   strengthen controls to ensure full compliance with Medicare billing requirements.

SAINT THOMAS HOSPITAL COMMENTS

In written comments on our draft report, the Hospital did not agree with our first
recommendation. In regard to our second recommendation, the Hospital discussed steps it had
taken or planned to take to strengthen its internal controls to ensure compliance with Medicare
billing requirements.

Incorrectly Billed as Inpatient

The Hospital agreed that 29 of 40 inpatient claims and all 4 outpatient claims were errors. The
Hospital disagreed that it incorrectly billed the remaining 11 claims as inpatient. The Hospital
also said that if these 11 claims were in error because they were billed for the wrong setting
(inpatient versus outpatient), then we should only report the difference between the inpatient
claim amount the Hospital actually received and the amount that the Hospital would have
received had it billed the claim as outpatient.

Statistical Sampling

Statistical Sampling Versus Judgmental Sampling

The Hospital said that it was not informed, until towards the end of the audit process that the
sample was statistical and the findings would be estimated. The Hospital also questioned our
rationale for selecting a hospital for statistical sampling and estimation of the overpayment rather


                                                 ii
than using judgmental sampling with no estimation. Additionally, the Hospital requested that we
permit them to repay only those claims that were actually audited.

Sample Frame

The Hospital said that our sample frame included several claims that the Recovery Audit
Contractors (RAC) had also reviewed. The Hospital believed that including RAC claims in our
sample frame, especially claims that the Hospital had already repaid, would result in the Hospital
repaying Medicare twice.

Although the Hospital did not agree with our sampling methodology, the Hospital said that it
would make any final payment necessary as a result of our use of statistical sampling.

OFFICE OF INSPECTOR GENERAL RESPONSE

Incorrectly Billed As Inpatient

We do not have enough information to calculate the difference between the inpatient claim
amount the Hospital actually received and the amount that the Hospital would have received had
it billed the claim correctly as outpatient. At the time of our exit conference with the Hospital on
March 26, 2013, the Hospital had not rebilled the 11 inpatient claims as outpatient. For us to
calculate the difference the Hospital would have to rebill the claims as outpatient and the
Medicare Administrative Contractor (MAC) would have to adjudicate the claims.

Statistical Sampling

Statistical Sampling Versus Judgmental Sampling

At our entrance conference on June 26, 2012, we informed the Hospital that we would use
statistical sampling techniques to select claims for review. In addition, during the course of the
audit, we discussed with a Hospital official our plans to “project” the sample results across the
population.

In regard to the Hospital’s selection for audit, we choose hospitals for audit on the basis of data
analysis, discussions with Medicare contractors, and previous OIG work. As this hospital
compliance review initiative has matured, we have refined our audit methodologies. Some
reviews use statistical sampling and estimation techniques to draw conclusions about a larger
portion of a hospital’s claims while other reviews use judgmental sampling. Each hospital
review is unique, and the sampling method used in each of these reviews will vary. For this
reason, we review different risk areas at different hospitals and use both statistical and
nonstatistical methods for selecting our samples. Our sampling and estimation techniques are
statistically valid methodologies that the OIG has used successfully to identify overpayments.
Therefore, we continue to recommend that the Hospital repay the full estimated amount.




                                                 iii
Sample Frame

We removed claims from our sample frame that were under review by the RAC prior to drawing
our sample. However, because of timing differences between when these claims were removed
and when we drew our sample, some claims included in both our sample frame and our sample
were subsequently identified as being under RAC or Department of Justice (DOJ) review. Our
inclusion of these RAC and DOJ claims in our sample did not increase the number of errors we
identified or increase our overpayment estimate. We treated each of the RAC and DOJ claims in
our sample as non-errors. By treating these claims as non-errors, we reduced the sample error
rate that was statistically applied to the sampling frame.

We continue to recommend that the Hospital refund to the Medicare contractor $1,092,248 in
estimated overpayments during the audit period.




                                             iv
                                                   TABLE OF CONTENTS
                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Claims at Risk for Incorrect Billing ................................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Saint Thomas Hospital ..................................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrectly Billed as Inpatient .......................................................................................5
          Incorrect Diagnosis-Related Groups ..............................................................................5
          Incorrect Reporting of Medical Device Credits .............................................................5
          Incorrectly Billed as Separate Inpatient Stay .................................................................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
         Incorrect Reporting of Medical Device Credits ..............................................................6
         Incorrect Healthcare Common Procedure Coding System Codes ..................................8

      OVERALL ESTIMATE OF OVERPAYMENTS.................................................................8

      RECOMMENDATIONS ......................................................................................................8

      SAINT THOMAS HOSPITAL COMMENTS ......................................................................8
         Incorrectly Billed As Inpatient........................................................................................9
         Statistical Sampling ........................................................................................................9

      OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................9
         Incorrectly Billed As Inpatient........................................................................................9
         Statistical Sampling ........................................................................................................9

APPENDIXES

      A: SAMPLE DESIGN AND METHODOLOGY

      B: SAMPLE RESULTS AND ESTIMATES

                                                                      v
C: RESULTS OF REVIEW BY RISK AREA

D: SAINT THOMAS HOSPITAL COMMENTS




                              vi
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. Examples of these types of claims at risk for noncompliance included the following:

1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
    •   inpatient short stays,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient claims paid in excess of charges,

    •   inpatient same-day discharges and readmissions,

    •   inpatient and outpatient manufacturer credits for replaced medical devices, and

    •   outpatient claims with payments greater than $25,000.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is a part of a series of OIG reviews of Medicare payments to hospitals for selected
types of claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Saint Thomas Hospital

Saint Thomas Hospital (the Hospital) is a 541 bed acute care facility located in Nashville,
Tennessee. According to CMS’s National Claims History data, Medicare paid the Hospital
approximately $261 million for 26,855 inpatient and 71,176 outpatient claims for services
provided to beneficiaries during calendar years (CY) 2009 and 2010.




                                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected types of claims.

Scope

Our audit covered $28,592,688 in Medicare payments to the Hospital for 3,297 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 250
claims with payments totaling $3,335,641. These 250 claims had dates of service in our audit
period and consisted of 195 inpatient and 55 outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 18 claims
to medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from June through September 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
        Claims History file for the audit period;

   •    obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    selected a stratified random sample of 250 claims (195 inpatient and 55 outpatient)
        totaling $3,335,641 for detailed review (Appendix A);

                                                 3
   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning DRG, HCPCS and admission status
       codes for Medicare claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   used CMS’s Medicare contractor medical review staff to determine whether 18 sampled
       claims met medical necessity requirements;

   •   calculated the correct payments for those claims requiring adjustments;

   •   used the results of the sample review to calculate the estimated Medicare overpayment to
       the Hospital (Appendix B); and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 206 of the 250 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
the remaining 44 claims, resulting in overpayments of $293,359 for the audit period.
Specifically, 40 inpatient claims had billing errors resulting in overpayments of $270,040, and 4
outpatient claims had billing errors resulting in overpayments of $23,319. These errors occurred
primarily because the Hospital did not have adequate internal controls to prevent incorrect billing
of Medicare claims within the selected risk areas that contained errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $1,092,248 for the audit period. Please see Appendix A for our sample design and
methodology and Appendix B for our sample results and estimates.



                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 40 of 195 randomly selected inpatient claims, which
resulted in overpayments of $270,040.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 22 of 195 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital said that these overpayments occurred because of human errors in the billing process,
including inappropriate decisions made by case management personnel.

As a result of these errors, the Hospital received overpayments of $189,952. 3

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2, of the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately ….”

For 10 of 195 sampled claims, the Hospital submitted claims to Medicare with incorrect DRG
codes. For example, one claim was submitted with a principal diagnosis code associated with a
myocardial infarction but the medical records indicated that the principle diagnosis code should
have been for supraventricular tachycardia. Changing the principle diagnosis code to the correct
code caused the DRG to change. The Hospital attributed these coding errors to its staff’s
misapplication of coding guidelines in the coding process.

As a result of these errors, the Hospital received overpayments of $25,976.

Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider, (2)
the provider receives full credit for the cost of a device, or (3) the provider receives a credit equal
to 50 percent or more of the cost of the device.

3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.

                                                         5
The Manual, chapter 3, section 100.8, states that to bill correctly for a replacement device that
was provided with a credit, the hospital must code its Medicare claims with a combination of
condition code 49 or 50, along with value code “FD.”

For 6 of 195 sampled claims, the Hospital received a reportable medical device credit from the
manufacturer for a replaced device, but did not adjust its inpatient claims with the proper
condition and value codes to reduce payment as required.

For example, one claim included charges for the replacement of a malfunctioning heart device
lead. The lead had originally been implanted in 2007 and was covered by the manufacturer’s
warranty. Based on this coverage, the manufacturer reimbursed the Hospital $3,600. However,
the Hospital did not adjust its claim to reflect this credit.

The Hospital said that copies of credit memos or credit notifications from manufacturers were
difficult to obtain, which made it difficult for the Hospital to follow up on credits. The Hospital
also said that it did not perform audits of manufacturers’ credits as thoroughly or regularly as
needed.

As a result of these errors, the Hospital received overpayments of $44,400.

Incorrectly Billed as Separate Inpatient Stay

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged/transferred from an acute care Prospective Payment
       System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
       the same day for symptoms related to, or for evaluation and management of, the
       prior stay’s medical condition, hospitals shall adjust the original claim generated
       by the original stay by combining the original and subsequent stay onto a single
       claim.

For 2 of 195 sampled claims, the Hospital billed Medicare separately for related discharges and
readmissions within the same day. The Hospital attributed these incorrect billings to human
error.

As a result, the Hospital received overpayments of $9,712.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 4 of 55 randomly selected outpatient claims, which
resulted in overpayments of $23,319.

Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or

                                                 6
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

Billing Requirements for Medical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ….” The CMS Provider Reimbursement Manual, part 1, section
2102.1, states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable
       is the expectation that the provider seeks to minimize its costs and that its actual
       costs do not exceed what a prudent and cost conscious buyer pays for a given item
       or service. If costs are determined to exceed the level that such buyers incur, in
       the absence of clear evidence that the higher costs were unavoidable, the excess
       costs are not reimbursable under the program.

Section 2103.A of the Provider Reimbursement Manual states that Medicare providers are
expected to pursue free replacements or reduced charges under warranties for medical devices.
Section 2103.C.4 provides the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits or payments available under the terms of the warranty
       covering the replaced equipment. The credits or payments that could have been
       obtained must be reflected as a reduction of the cost of the equipment supplied.

Hospital Overpayments

For 2 of 55 sampled claims, the Hospital received a full credit for a replaced device but did not
report the “FB” modifier and reduced charges on its claim (1 claim), or the Hospital did not
obtain a credit for a replaced device that was available under the terms of the manufacturer’s
warranty (1 claim). In the first instance, the Hospital received a credit for replacing a
malfunctioning battery.




                                                   7
The Hospital said that copies of credit memos or credit notifications from manufacturers were
difficult to obtain, which made it difficult for the Hospital to follow up on credits. The Hospital
also said that it did not perform audits of manufacturers’ credits as thoroughly or regularly as
needed.

As a result of these errors, the Hospital received overpayments of $22,190.

Incorrect Healthcare Common Procedure Coding System Codes

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “[T]o be processed correctly and promptly, a bill must be completed
accurately….”

For 2 of 55 sampled claims, the Hospital submitted claims to Medicare with incorrect HCPCS
codes. In one instance, the Hospital billed using a HCPCS code for the removal of a heart device
lead. However, the medical records showed that the lead was repaired but not removed. The
Hospital cited human error as the cause of these errors.

As a result of these errors, the Hospital received overpayments of $1,129.

OVERALL ESTIMATE OF OVERPAYMENTS

Based on our sample results, we estimated that the Hospital received overpayments of at least
$1,092,248 for the audit period. Our sample design and methodology are discussed in Appendix
A and our sample results and estimates are discussed in Appendix B.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $1,092,248 in estimated overpayments for the audit
       period claims that it incorrectly billed and

   •   strengthen controls to ensure full compliance with Medicare billing requirements.

SAINT THOMAS HOSPITAL COMMENTS

In written comments on our draft report, the Hospital did not agree with our first
recommendation. In regard to our second recommendation, the Hospital discussed steps it had
taken or planned to take to strengthen its internal controls to ensure compliance with Medicare
billing requirements.




                                                 8
Incorrectly Billed as Inpatient

The Hospital agreed that 29 of 40 inpatient claims and all 4 outpatient claims were errors. The
Hospital disagreed that it incorrectly billed the remaining 11 claims as inpatient. The Hospital
also said that if these 11claims were in error because they were billed for the wrong setting
(inpatient versus outpatient), then we should only report the difference between the inpatient
claim amount the Hospital actually received and the amount that the Hospital would have
received had it billed the claim as outpatient.

Statistical Sampling

Statistical Sampling Versus Judgmental Sampling

The Hospital said that it was not informed, until towards the end of the audit process that the
sample was statistical and the findings would be estimated. The Hospital also questioned our
rationale for selecting a hospital for statistical sampling and estimation of the overpayment rather
than using judgmental sampling with no estimation. Additionally, the Hospital requested that we
permit them to repay only those claims that were actually audited.

Sample Frame

The Hospital said that our sample frame included several claims that the Recovery Audit
Contractors (RAC) had also reviewed. The Hospital believed that including RAC claims in our
sample frame, especially claims that the Hospital had already repaid, would result in the Hospital
repaying Medicare twice.

Although the Hospital did not agree with our sampling methodology, the Hospital said that it
would make any final payment necessary as a result of our use of statistical sampling.

OFFICE OF INSPECTOR GENERAL RESPONSE

Incorrectly Billed As Inpatient

We do not have enough information to calculate the difference between the inpatient claim
amount the Hospital actually received and the amount that the Hospital would have received had
it billed the claim correctly as outpatient. At the time of our exit conference with the Hospital on
March 26, 2013, the Hospital had not rebilled the 11 inpatient claims as outpatient. For us to
calculate the difference the Hospital would have to rebill the claims as outpatient and the
Medicare Administrative Contractor (MAC) would have to adjudicate the claims.

Statistical Sampling

Statistical Sampling Versus Judgmental Sampling

At our entrance conference on June 26, 2012, we informed the Hospital that we would use
statistical sampling techniques to select claims for review. In addition, during the course of the


                                                 9
audit, we discussed with a Hospital official our plans to “project” the sample results across the
population.

In regard to the Hospital’s selection for audit, we choose hospitals for audit on the basis of data
analysis, discussions with Medicare contractors, and previous OIG work. As this hospital
compliance review initiative has matured, we have refined our audit methodologies. Some
reviews use statistical sampling and estimation techniques to draw conclusions about a larger
portion of a hospital’s claims while other reviews use judgmental sampling. Each hospital
review is unique, and the sampling method used in each of these reviews will vary. For this
reason, we review different risk areas at different hospitals and use both statistical and
nonstatistical methods for selecting our samples. Our sampling and estimation techniques are
statistically valid methodologies that the OIG has used successfully to identify overpayments.
Therefore, we continue to recommend that the Hospital repay the full estimated amount.

Sample Frame

We removed claims from our sample frame that were under review by the RAC prior to drawing
our sample. However, because of timing differences between when these claims were removed
and when we drew our sample, some claims included in both our sample frame and our sample
were subsequently identified as being under RAC or Department of Justice (DOJ) review. Our
inclusion of these RAC and DOJ claims in our sample did not increase the number of errors we
identified or increase our overpayment estimate. We treated each of the RAC and DOJ claims in
our sample as non-errors. By treating these claims as non-errors, we reduced the sample error
rate that was statistically applied to the sampling frame.

We continue to recommend that the Hospital refund to the Medicare contractor $1,092,248 in
estimated overpayments during the audit period.




                                                 10
APPENDIXES
                                                                                      Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population contained inpatient and outpatient claims paid to the Hospital for services
provided to Medicare beneficiaries during the audit period.

SAMPLING FRAME

Medicare paid the Hospital $260,747,957 for 26,855 inpatient and 71,176 outpatient claims for
services provided to beneficiaries during the audit period based on CMS’s National Claims
History (NCH) data.

We downloaded a database of claims from the NCH database totaling $155,711,635 for 13,193
inpatient and 22,791 outpatient claims in 30 high risk areas. From these 30 areas, we selected 6
consisting of 11,612 claims totaling $124,744,004, for further review.

We then removed the following:
  • $0 paid claims,
  • claims under review by the Recovery Audit Contractor, and
  • claims duplicated within individual high risk categories.

We assigned each claim that appeared in multiple high risk categories to just one category based
on the following hierarchy: Manufacturer Credits for Replaced Medical Devices, Inpatient Short
Stays, and Inpatient Claims Paid in Excess of Charges. This resulting database contained 3,297
unique Medicare claims in 6 high risk categories totaling $28,592,688 from which our sample
was drawn.

                                                                Number of        Amount of
                   Medicare High Risk Area
                                                                 Claims          Payments
 1. Inpatient Short Stays                                              1,707       $11,510,539
 2. Inpatient Claims Paid in Excess of Charges                           369          3,335,775
 3. Outpatient Claims with Payments Greater Than $25,000                  98          2,628,766
 4. Inpatient Claims Billed with High-Severity-Level
     Diagnosis-Related Group Codes                                     1,043          9,691,709
 5. Inpatient Same-Day Discharges and Readmissions                         4             34,518
 6. Inpatient and Outpatient Manufacturer Credits for
     Replaced Medical Devices                                             76          1,391,381
    Total                                                              3,297       $28,592,688
                                                                                     Page 2 of 2


SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used a stratified random sample. We stratified the sampling frame into six strata based on
the Medicare risk category.

SAMPLE SIZE

We selected 250 claims for review as follows:

                                                                Claims in           Claims in
  Stratum              Medicare High Risk Area
                                                              Sample Frame           Sample
      1       Inpatient Short Stays                                      1,707                50
      2       Inpatient Claims Paid in Excess of Charges                   369                40
              Outpatient Claims With Payments Greater
      3                                                                     98                30
              Than $25,000
              Inpatient Claims Billed With High-Severity-
      4                                                                  1,043                50
              Level Diagnosis-Related Group Codes
              Inpatient Same Day Discharges and
      5                                                                      4                  4
              Readmissions
              Inpatient and Outpatient Manufacturer
      6                                                                     76                76
              Credits for Replaced Medical Devices
                 TOTAL                                                   3,297             250

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata one through four. After generating the
random numbers for these strata, we selected the corresponding frame items. We selected all
claims in strata five and six.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the total amount of Medicare
overpayments paid to the Hospital during the audit period.
                     APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                                Sample Results

                                                                                 Number of
                  Frame                                                          Incorrectly         Value of
                                  Value of        Sample Total Value
    Stratum        Size                                                             Billed         Overpayments
                                   Frame           Size   of Sample
                 (Claims)                                                         Claims in         in Sample
                                                                                   Sample
       1              1,707      $11,510,539             50        $325,141                   9                $56,050
       2                369         3,335,775            40         358,353                  12                 86,240
       3                  98        2,628,766            30         803,289                   1                   565
       4              1,043         9,691,709            50         422,959                   4                 14,945
       5                   4           34,518             4           34,518                  1                  3,624
       6                  76        1,391,381            76       1,391,381                  17                131,935
     Total            3,297      $28,592,688           250      $3,335,641                   44               $293,359



                          Estimates of Overpayments for the Audit Period
                        Limits Calculated for a 90-Percent Confidence Interval

                                   Point Estimate                  $2,844,665
                                   Lower limit                     1,092,248 4
                                   Upper limit                      4,612,592




4
 In accordance with OAS policy, we did not use the results from strata 3 and 4 in calculating the estimated
overpayments. Instead, we added the actual overpayments from strata 3 and 4 ($15,510) to the lower limit
($1,076,738), which resulted in an adjusted lower limit of $1,092,248.
                            APPENDIX C: RESULTS OF REVIEW BY RISK AREA



                                                                                                     Claims
                                                                                  Value of            With            Value of
                                                              Selected            Selected           Over-             Over-
                     Risk Area                                Claims              Claims            payments          payments
Inpatient

Short Stays                                                       50                  $325,141           9                   $56,050

Claims Paid in Excess of Charges                                  40                   358,353          12                    86,240
Claims Billed with High-Severity-Level
                                                                  50                   422,959           4                    14,945
Diagnosis-Related Group Codes
Same-Day Discharges and Readmissions                               4                     34,518          1                     3,624
Manufacturer Credits for Replaced Medical
                                                                  51                 1,031,617          14                   109,181
Devices
 Inpatient Totals                                                195               $2,172,588           40               $270,040



Outpatient

Claims With Payments Greater Than $25,000                         30                  $803,289           1                     $565
Manufacturer Credits for Replaced Medical
                                                                  25                   359,764           3                    22,754
Devices
 Outpatient Totals                                                55               $1,163,053            4                   $23,319



 Inpatient and Outpatient Totals                                 250               $3,335,641           44               $293,359


        Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
        outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
        billing errors we found at Saint Thomas. Because we have organized the information differently, the information in
        the individual risk areas in this table does not match precisely with this report’s findings.




        OIG Note: Subsequent to the issuance of our draft report to Saint Thomas, we determined
        that our sample of 250 claims consisted of 195 inpatient and 55 outpatient claims rather
        than the 204 and 46, respectively, we reported in the draft report.
                                                                                                               Page 1 of5

         APPENDIX D: SAINT THOMAS HOSPITAL COMMENTS 





D       SaintThomas
        Health

 April 3, 2013




Lori S. Pilcher
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Audit Services, Region IV
61 Forsyth St., SW, Suite 3T41
Atlanta, GA 30303

RE: Medicare Compliance Review ofSaint Thomas Hospital for Calendar Years 2009 and 

    2010 (Report Number A-04-12-03071) 


Dear Ms. Pilcher:

We are in receipt of the U. S. Department of Health and Human Services, Office of Inspector General
(OIG) draft report entitled Medicare Compliance Review of Saint Thomas Hospital for Calendar Years
2009 and 2010. We appreciate the opportunity to respond to the draft report.

Saint Thomas Hospital ("STH") is committed to providing quality care to our patients. In addition, we
are good corporate citizens and it is our intent and focus to ensure that we appropriately and accurately
bill all payers, in particular our governmental payers. We strive to stay abreast of billing guidelines and
have implemented many measures to self-audit our processes and claims. To this end, STH values the
feedback provided by the draft report and has taken it seriously.

The OIG audit covered $3,335,641 in Medicare payments to STH for 250 claims (204 inpatient and 46
outpatient claims) audited. Towards the end of the audit process, we were informed for the first time
that the sample was statistical and would result in extrapolation of the audit findings. As a result of the
detail review, the OIG identified 40 inpatient claims with billing errors resulting in overpayment of
$270,040 and 4 outpatient claims with billing errors resulting in overpayments of $23,319. The 44
claims with billing errors resulted in a tota l of $293,359 in overpayments for CYs 2009 and 2010. The
OIG subsequently applied the error rate to the population and estimated that the Hospital received
overpayments totaling $1,092,248 for CYs 2009 and 2010.

STH would like to comment on the application of the "statistical" vs. "judgmental" sampling methodology
that was utilized for this audit. In reviewing the Medicare Compliance Reviews audit reports the OIG
has issued in the past two years, all of them were based on a "judgmental" sampling methodology. In
some cases, it was noted that some hospitals had no extrapolation even though their overpayment
audit results appeared to exceed those of STH. STH respectfully questions the rationale for selecting a
hospital for the "statistical' vs. "judgmental" sampling methodology, particularly so far in to this present
hospital compliance audit initiative. Those facilities that had the "judgmental" sampling methodology


                 Saint Thomas Hospital, 4220 Harding Road, P.O. Box 360, Nashville, TN 37202
                                                                                                          Page 2 of5




 applied only had to refund the overpayments for the claims actually reviewed as part of the audit. This
 seems reasonable especially when the process of determining "medical necessity" for inpatients is a
 "complex decision making process" and sometimes "gray "at best. Indeed, billing reviews conducted
 over the past two years by the Recovery Audit Contractor on behalf of the Center for Medicare and
 Medicaid Services (CMS) have proven that many claims cited as being inappropriate for inpatient
 status have been subsequently appealed and reversed through the appeal process. The American
 Hospital Association has reported that 6 1% of medical necessity denials were for 1 day stays where the
 care was provided in the wrong setting. Of those cases appealed, 72% of the appeals are being
 reversed in the provider favor. This further substantiates the difficulty in applying the •complex medical
 decision" process to appropriate setting. We therefore request that you reconsider the application of the
 "statistical" sampling methodology in this case ·and permit us to reimburse only those claims that were
 actually audited, as has been the case with all of your previously published hospital Medicare
 compliance reviews.

 Assuming for the sake of argument that extrapolation is appropriate here, we would also like to
 comment on the payment calculation methodology used for the claims that were fou nd in error due to
 the wrong setting (i npatient vs. outpatient). For those claims, the total reimbursement amount was
 reflected as an overpayment error when in fact this is not accurate. The overpayment error should be
 reflective of the "actual overpayment" amount (net, not gross). The overpayment calculation for DRG
errors is reflected as the "actual overpayment" (difference between the correct DRG and the wrong
 DRG reimbursement). CMS has most recently issued a ruling (1455-NR) which allows hospital who
have an inpatient denial to submit a Part B inpatient claim for more than just ancillary services. This
ruling provides significant relief to hospitals who in the past could only receive reimbursement for
ancillary services. This audit should similarly reflect reimbursement for medically necessary services
provided. Some Administrative Law Judges have agreed to the extent that Part A denial is upheld, the
hospital is entitled to full Part B payment reimbursement. The audit reflects $189,952 in overpayments
because medically necessary services were performed in an inpatient setting. The audit payment
calculation methodology should accurately reflect the actual overpayment (inpatient DRG - outpatient
APC). In doing so, the hospital is compensated for medically necessary services provided to the
Medicare Beneficiary. We would like to request that you apply the rebill payment methodology as
described in the recently issued MLN Matters Number: MM8185 "CMS Administrator's Ruling: Part A
to Part B Rebilling of Denial Hospital Inpatient Claims". In doing so, the accurate overpayment
amount will be reflected in the extrapolation process and the report.

The draft audit report indicated that Recovery Audit Contractor (RAC) cases were excluded from the
frame. We requested the frame file to confirm that RAC cases had been excluded. The use of
extrapolation while there is such extensive RAC activity could result in the hospital repaying Medicare
twice. Based on our review, we identified several RAC cases that are included in the frame file. I have
cited two examples of the type of cases included in the frame and the impact to STH:
        Short Stay Case that was reviewed and approved by the RAC, no repayment required; 

        extrapolation error rate was applied against this case as part of the frame; 

        Short Stay Case was reviewed and denied by the RAC, repayment to CMS has occurred, STH 

        is appealing the case. In this case, we have already repaid the Medicare Program and the 

        extrapolation is being applied against this case which results in "double payment". 

We would request that the OIG re-evaluate the frame file to ensure that all cases t hat have been
requested by the RAC are removed as indicated in the draft report.


We have taken great effort to review the details of the audit findings and provide the following
response:
                                                                                                         Page 3 of5




Billing Errors Associated With Inpatient Claims

      Incorrectly Billed as Inpatient

      The OIG auditor's findings indicate that STH incorrectly billed 24 of 204 sampled claims to
      Medicare Part A for beneficiary stays that should have been billed as outpatient or outpatient
      with observation services. As a result, STH received overpayments totaling $189,952.

      STH concurs that 13 claims were in error but we respectfully disagree that 11 claims were
      incorrectly billed as inpatients. The 11 claims are sample cases 25, 28, 33, 34, 65, 78, 87, 88,
      125, 134, and 180; these claims represent approximately $70,572 in reimbursement.

     CMS policy states that the physician is responsible fo r a patient's care at the hospital. The
     physician is also responsible for deciding whether the patient should be admitted as an
     inpatient. The decision to admit a patient is a complex medical judgment which can be made
     only after the physician has considered a number of factors , including the patient's medical
     history, current medical needs, and the type of facilities available to inpatients and to
     outpatients, the hospital bylaws and admission policies and the relative appropriateness of
     treatment in each setting. To assist and support the physician in this complex decision making
     process, the hospital utilizes nationally accepted screening criteria, evidence based practices,
     clinical j udgment and advisement from those who have expertise in th is area. It is our position
     that we exercised due diligence in supporting and assisting the physician in his/her final
     decision to admit the patient as an inpatient in the eleven claims noted above.

     Because we adamantly believe that we provided the appropriate services in the best interest of
     our patients and in compliance with Medicare's policy, we will take these claims through the
     appeal process available to us. At such time that we receive a f inal opinion regard ing our
     appeal, we w ill request through the CMS/Medicare Audit Contractor that the OIG re-evaluate the
     overpayment calculation for any reversed opinions.

     Incorrect Diagnosis-Related Groups

     The O IG auditor's findings indicate that STH incorrectly billed 10 of 204 sampled c laims to
     Medicare w ith incorrect DRG codes. As a result, STH recei ved overpayments totaling $25,976.

     STH concurs that 10 claims were in error.

     Incorrect Reporting of Medical Device Credits

     The OIG auditor's findings indicate that STH incorrectly billed 6 of 204 sampled claims where
     STH rece ived a reportable medical dev ice credit from the manufacturer for a replaced device
     and failed to adjust the inpatient claims with the proper condition code and value codes to
     redu ce payment as required by Medicare. As a result, the Hospital recei ved ov erpayments
     totaling $ 44,400.

     STH concurs that the 6 claims were billed in error.


     Incorrect Billed as Separate Inpatient Stay
                                                                                                            Page 4 of5




      The OIG auditor's findings indicate that STH incorrectly billed 2 of 204 sampled claims to
      Medicare separately for related discharges and readmissions within the same day. As a result,
      the Hospital received overpayments totaling $9,712.

      STH concurs that the 2 claims were billed in error.

Billing Errors Associated With Outpatient Claims

      Incorrect Reporting of Medical Device Credits

      The OIG auditor's findings indicate that STH incorrectly billed 2 of 46 sampled claims where
      STH received a reportable medical device for full credit from the manufacturer for a replaced
      device and failed to adjust the outpatient claims with the proper modifier to reduce payment or
      STH fa iled to pursue the credit that was due as required by Medicare guidance. As a result , the
      Hospital received overpayments totaling $22,190.

      STH concurs that the 2 claims were billed in error.

      Incorrect Healthcare Common Procedure Coding System Codes

      The OIG auditor's findings indicate that STH incorrectly billed 2 of 46 sampled claims where
      STH submitted to Medicare incorrect HCPCS codes. As a result, the Hospital received
      overpayments totaling $1 ,129.

      STH concurs that the 2 claims were billed in error.

Response to Recommendations made by the OIG to STH:

      Refund to the Medicare contractor $1,092,248 in estimated overpayments for CYs 2009
      and 201 0 claims that it incorrectly billed and

     STH acknowledges the methodology used to estimate the overpayment of $1 ,092,298 based on
     the statistical sampling methodology, however we do not concur with th is methodology. As
     previously discussed we believe that it is not appropriate to extrapolate for the following
     reasons:
         )> 	 Due to the complexity in determining appropriate setting and the significant reversal rate
              for appeals of previously denied inpatient claims, extrapolation compounds an error rate
              that is questionable;
         )> 	 The use of extrapolation disadvantages STH as no other hospital with a published OIG
              audit report related to this initiative received this type of treatment even if their audit
              results were more unfavorable thah ours;
         )> 	 The error rate ca lculated does not accurately reflect the overpayment amount
              (overpayment calculation reflects total reimbursement for inpatient stay not the net
              overpayment as was done in the DRG changes) .
     We will however make any final payment necessary as a result of this process.

  • 	 Strengthen controls to ensure full compliance with Medicare billing requirements.

     STH concurs that there is an opportunity to strengthen controls to ensure compliance with
     Medic_are billing requirements. We do not believe though that it is reasonable to expect "full ­
                                                                                                               Page 5 of5




        100%' compliance with Medicare billing requirements in all instances. However, STH is
        committed to strive to this objective and have implemented the following corrective action plans:

            ~ 	 To   ensure accurate claims regarding credits of medical devices, t he policy and
                procedure has gone through extensive revision, assignment to an STH Associate who
                has increased knowledge in the area of replacing devices, cooperation with vendors to
                receive medical device credit reports on a monthly basis, and the Compliance
                Department will conduct periodic audits to confirm billing accuracy.
            ~ 	 To ensure accurate coding of claims, ST H has reviewed the audit results to identify any
                trends in errors as to type and individual making error. ST H will continue to perform
                q uarterly audits as necessary in the assignment of DRGs and selection of CDM codes.
                The audit process includes education to the coder, rebill of claims in error, and focused
                review follow-up , when warranted.
            ~ 	 To ensure accurate sel ection of patient setting (outpatient vs. inpatient), Case Managers
                will be audited on a routine bass to ensure proficiency in evaluating cases for medical
                necessity. T he audit process includes education of t he associate, rebill of claims in
                error, and focused review follow-up, when warranted.

STH ta kes compliance re sponsibilities and obligations very seriously. We have re -evaluated our
current processes and procedures where we have made b illing errors. We have taken steps to
strengthen internal controls, increase the amount of auditing to better scrutinize our claims, and to re­
educate staff where there are opportunities for improved accuracy. We are grateful for the constructive
fee dba ck this audit process has provided us to meet our goal as a good corporate citizen.

We look forward to receiving your response to t he items d iscussed in our Exit Conference and in this
communication. We w ould like the opportunity to review any revisions made to the audit report and
shall prepare a respo nse to the fina l audit report. Please feel free to conta ct me if you have q uestions
about our efforts or if additional information is needed.




cc: Dawn Rudolph, President and Chief Executive Officer
    Pam Hess, Chief Financial Officer
